GR-80-98-014
U.S. Department of Justice
 
Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
LAVON POLICE DEPARTMENT LAVON, TEXAS 
GR-80-98-014
March 31, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Lavon Police Department, Lavon, Texas. The Lavon
Police Department was awarded grants of $70,274 to hire or rehire one sworn police officer
under the Funding Accelerated for Smaller Towns (FAST) program and $182,420 to hire or
rehire two full-time and one part-time additional police officers under the Universal
Hiring Program (UHP). In addition, the Lavon Police Department was awarded $14,505 to
redeploy 0.9 officers under the Making Officer Redeployment Effective (MORE) program. The
purpose of the additional officers is to enhance community policing efforts.
Due to the Lavon Police Department's failure to meet the terms and conditions of the
grant, we are questioning $55,576 of $59,273 (or 93.8 percent) in funds received under the
FAST/UHP grant at the time of our audit. In addition, $72,220 of the remaining $193,421
(or 37.3 percent) in FAST/UHP grant funds should be withheld as funds to better use due to
the Lavon Police Department's overstatement of salaries and benefits in its grant
application and the Lavon Police's failure to follow the supplanting and officer retention
requirements of the grant. Further, based on the absence of an officer redeployment
tracking system, we are questioning $4,147 received under the MORE grant.
We found the following discrepancies with regard to meeting grant conditions: 


- The Lavon Police Department improperly received payment of $43,520 for police officer
    salaries and benefits awarded under the FAST grant. 
- The Lavon Police Department supplanted $10,036 in police officer salaries with UHP
    grant funds by not replacing a City-funded officer prior to hiring two grant-funded
    officers.
- The Lavon Police Department failed to notify the COPS office that it would not
    replace a grant-funded officer that had left the Lavon Police. We question the $2,020 in
    grant funds paid to the officer because of the unapproved program change.
- The Lavon Police Department overstated its FAST/UHP grant applications by $40,582.
- The FAST/UHP grant award amounts should be reduced by $31,638 because the City failed
    meet the officer retention requirement of the grant.
- The Lavon Police Department was reimbursed $4,147 in MORE grant funds, but did not
    track the redeployment of officers to community policing.
- The Lavon Police Department did not submit the required Departmental Initial Report
    or Department Annual Reports.
#####